Audit
Report
              MANAGEMENT COSTS ASSOCIATED WITH
                THE DEFENSE ENTERPRISE FUND


Report No. D-2002-033                      December 31, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports, or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DEF                   Defense Enterprise Fund
FAR                   Federal Acquisition Regulation
GPV                   Global Partner Ventures, LLC
NIS                   Newly Independent States
OMB                   Office of Management and Budget
SEED                  Support for Eastern European Democracy
                              Office of the Inspector General, DoD
Report No. D-2002-033                                                                December 31, 2001
      (Project No. D2000LG-0031.02)

                             Management Costs Associated With
                               the Defense Enterprise Fund

                                         Executive Summary

Introduction. This report is being issued to provide lessons learned for managing
enterprise funds. The Cooperative Threat Reduction Program was initiated in FY 1992
to reduce the threat posed by weapons of mass destruction remaining in the former
Soviet Union. In June 1994, DoD established the Defense Enterprise Fund to assist
Belarus, Kazakhstan, Russia, and Ukraine in the privatization of defense industries and
conversion of military technologies and capabilities for civilian use.

The National Defense Authorization Act for fiscal year 1994, section 1204
(22 U.S.C. 5953), authorized the President to designate Demilitarization Enterprise
Funds to receive grants and use those grants for financially supporting demilitarization
of industries and converting military technologies and capabilities to civilian activities.
The law required that the President consult with the Department of State and the
U.S. Agency for International Development to ensure that the terms of any such grants
were consistent, to the maximum extent practicable, with grants awarded to enterprise
funds established under the Support for East European Democracy Act of 1989 (Public
Law 101-179 [22 U.S.C. 5421]). The authority and requirements established under the
National Defense Authorization Act for fiscal year 1994, section 1204, were
subsequently delegated to the Secretary of Defense. The Defense Enterprise Fund was
created under the authority delegated to the Secretary of Defense.

The DoD and Department of State provided funding of $66.7 million to the Defense
Enterprise Fund through a grant. Inspector General, DoD, Report No. D-2000-176,
“Defense Enterprise Fund,” August 15, 2000, discusses reasons why the value of
investments decreased from $38.3 million to $31.3 million* as of March 2000. As of
September 30, 2000, the total value of the Defense Enterprise Fund was $15.2 million,
including $11.0 million of investments.

Office of Management and Budget Circular No. A-122, “Cost Principles for Non-Profit
Organizations,” is a regulation used by Government agencies to determine which
expenses incurred by non-profit organizations can be charged to Government awards.
That regulation was not included as a requirement in the grant to the Defense Enterprise
Fund to be consistent with grants awarded to enterprise funds established under the
Support for East European Democracy Act of 1989. Those grants did not include
Office of Management and Budget Circular No. A-122 as a grant requirement. To be

*
    Although the Inspector General, DoD, report shows the value of Defense Enterprise Fund investments
    to be $31.3 million as of March 2000, the audited financial statements of the Defense Enterprise Fund
    for the fiscal year ending September 30, 1999, indicate that investments decreased to $14.9 million.
    Also, according to the audited financial statements, the net value of the Defense Enterprise Fund as of
    September 30, 1999, was $17.5 million.
chargeable to Government grants based on Office of Management and Budget
Circular No. A-122, expenses must be reasonable, allocable to the grant, consistent
with organization policies and procedures, and accorded consistent treatment.
Expenses are allocable if they were incurred for the award, benefit both the award and
other work, and can be distributed in reasonable proportion to the benefits received, or
were necessary to the overall operation of the organization.

Objectives. Our overall audit objective was to evaluate how the Defense Enterprise
Fund and its fund manager, Global Partner Ventures, LLC, used grant funds for
managing the grant. In addition, we evaluated whether the terms of the grant provided
to the Defense Enterprise Fund were consistent with grants awarded to enterprise funds
established under the Support for East European Democracy Act of 1989.

Results. Through FY 2000, the Defense Enterprise Fund and Global Partner
Ventures, LLC, used at least $35.6 million of grant funds and income from grant funds
for management costs and expenses in conformance with the grant agreement. That
amount included $32.4 million expended by the Defense Enterprise Fund and Global
Partner Ventures, LLC, between FY 1994 and FY 1999, the period covered by our
review. As required by National Defense Authorization Act for fiscal year 1994, the
terms of the grant to the Defense Enterprise Fund were generally consistent with the
terms of grants awarded under the Support for East European Democracy Act of 1989.
As a lessons learned, had statutory authority allowed DoD to incorporate cost principles
for Federal grants into the grant agreement, the grants officer could have determined
that management costs and expenses totaling at least $2.2 million to be unallocable,
unallowable, or unreasonable.

Management Actions. Because DoD was required to follow the terms of grants
awarded under the Support for East European Democracy Act of 1989 and the Defense
Enterprise Fund subsequently awarded a firm-fixed-price contract in October 1999
valued at $2 million a year, to manage its investments, this report contains no
recommendations.

Management Comments. The Defense Threat Reduction Agency comments to the
draft report emphasized that DoD does not control the Defense Enterprise Fund and
stated that Congress declined to impose Federal regulations on the Defense Enterprise
Fund. In addition, the Defense Threat Reduction Agency noted that it prepared the
grant according to specific legislative requirements. Also, the Defense Threat
Reduction Agency stated that the Defense Enterprise Fund was chartered to use grant
funds to organize its management company and raise private capital. The Defense
Threat Reduction Agency suggested that the lead sentence in the Executive Summary of
this report state that the Defense Enterprise Fund used funds according to the terms of
the grant.

A discussion of management comments is in the Finding section of the report and the
complete text is in the Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                           i

Introduction
     Background                                                             1
     Objectives                                                             3

Finding
     Use of Grant Funds to Manage Investments                               4

Appendixes
     A. Audit Process
          Scope                                                            16
          Methodology                                                      17
          Management Control Program Review                                18
          Prior Coverage                                                   18
     B. Management Expenses By Fiscal Year                                 20
     C. Expenses Related to Organizing Global Partner Ventures, LLC, and
          the NIS Transformation Fund                                      22
     D. Report Distribution                                                24

Management Comments
     Defense Threat Reduction Agency Comments                              25
Background
    The Defense Enterprise Fund (DEF) was established under section 1204 of the
    National Defense Authorization Act for fiscal year 1994, Public Law 103-160
    (22 U.S.C. 5953). The DEF is a private not-for-profit corporation that makes
    investments devoted to defense conversion.1 Initially, the Defense Nuclear
    Agency, renamed the Defense Special Weapons Agency in June 1996, had
    oversight responsibility for the DEF. Since September 30, 1998, the
    Cooperative Threat Reduction Program Directorate, a component of the Defense
    Threat Reduction Agency, has had oversight responsibility for the DEF.

    Grant Funding. DoD provided funds to the DEF through Grant
    No. DNA001-94-J-0004 dated June 21, 1994. As of April 2001, DoD had
    funded the grant for $66.7 million, including $15 million transferred from the
    Department of State in FY 1997 under the Freedom Support Act. In addition to
    those appropriated funds, section 1204(f) of the National Defense Authorization
    Act for fiscal year 1994 authorized the DEF to use interest earned on the
    appropriated funds for program purposes.

    DEF Activities. The purpose of the DEF grant is to provide financial support
    for commercial initiatives in eligible states of the newly independent states (NIS)
    of the former Soviet Union that facilitate demilitarization of defense industries
    and conversion of military technologies and capabilities to civilian activities.
    NIS countries eligible for assistance include Belarus,2 Kazakhstan, Russia, and
    Ukraine. The grant allows the DEF to invest in joint business initiatives
    involved in converting the defense sector in the NIS. Those initiatives are to
    include former Soviet Union business partners formerly engaged in producing or
    supporting weapons of mass destruction or other defense-related endeavors and
    at least one western business partner. Investments include loans and equity
    investments.

    The grant states that the DEF could use revenue that it generates to pay
    expenses and to invest in new projects and activities in the NIS. The grant also
    states that the DEF could establish, invest in, or finance subsidiaries or other
    entities whose primary business is to make investments or loans or to provide
    financial services, with the prior written approval of the Defense Nuclear
    Agency.3 Approval is based on the consistency of the business purpose and
    investment policies and practices with those of the DEF and the extent to which
    the requirements of the grant apply to that entity.




    1
        Defense conversion is the transition of personnel or facilities that were formerly involved in
        research, development, production, or operation and support of the defense sector to peaceful
        civilian activities.
    2
        The DEF has not invested in Belarus since FY 1997 because of human rights violations.
    3
        The provision allowed the DEF to finance the establishment of Global Partner Ventures, LLC.



                                                  1
Managing DEF Investments. Initially, DEF employees managed fund
investments. In December 1997, the grant officer for the Defense Special
Weapons Agency approved the transfer of fund management to Global Partner
Ventures, LLC (GPV), and in February 1998 that arrangement was finalized
with a contract that was awarded noncompetitively. GPV, a for-profit
company, was owned by two DEF employees, one of whom retained the
position as president of the DEF after the transfer. GPV purchased DEF assets
at book value.4 In forming GPV, the DEF employees were expecting to attract
private capital and establish other funds. The DEF was expected to benefit from
GPV expansion efforts because overhead costs would be allocated between DEF
projects and projects of the private fund. Although the contract between the
DEF and GPV ran through September 2000, the DEF purchased GPV in July
1999. In October 1999, the DEF awarded a noncompetitive contract to another
for-profit company, Siguler Guff and Company, LLC, a New York-based
investment manager, to manage the fund through FY 2004. The contract with
Siguler Guff and Company, LLC, is a firm-fixed-price contract for 5 years and
valued at $2 million a year. According to a former chief financial officer for
the DEF and GPV, Siguler Guff and Company, LLC, was one of the few
private investment firms doing business in Russia after the decline of the
Russian economy in 1998.

Managing investments of the DEF consists of various activities, to include:

        •    Monitoring the status of DEF investments;

        •    Consulting with companies in which the DEF has invested and
             providing advise on financial and operational management strategies;

        •    Planning and negotiating to maximize the value of DEF investments;
             analyzing, identifying, performing due diligence, and structuring and
             negotiating new DEF investments in the region or, making additional
             investments in companies in which the DEF has invested; and

        •    Working with the DEF to attract private capital for investment in the
             region, to the extent that economic conditions in the region permit.

Management Costs. Between FY 1994 and FY 2000, the cost of managing the
fund totaled more than $35.6 million, of which $32.4 million was incurred
between FY 1994 and FY 1999 when DEF employees and GPV managed the
fund. Management costs for the fund through FY 2000 are summarized in
Appendix B. The scope of our review of management costs was limited to costs
shown in the DEF and GPV general ledgers for FY 1997, FY 1998, and

4
 Book value is the residual value of an entity’s assets after deducting its liabilities. In report
GAO/OGC-99-61R, “Foreign Assistance: Issues Concerning the Polish-American Enterprise
Fund,” September 14, 1999, the General Accounting Office reviewed a similar arrangement
regarding the Polish-American Enterprise Fund. The General Accounting Office concluded that
the sale to employees at book value was consistent with law and that sale terms were reasonable.
The General Accounting Office agreed with officials from the U.S. Agency for International
Development and Department of State who stated that limiting the valuation of the Polish-
American Enterprise Fund was needed to preserve the continuity of staff, which was critical to
the success of the fund.



                                           2
     FY 1999. In addition, the scope was limited to DEF and GPV records provided
     by the DEF General Counsel and at the New York offices of the current fund
     manager. Details of the scope limitations are in Appendix A.

     Under terms of the grant, the cost of managing the DEF was paid from grant
     funds. Also, the contract between the DEF and GPV called for GPV to be paid
     the costs that it incurred. Specifically, the contract states that the DEF will pay
     a management fee to GPV in advance, calculated to cover expenses. If the
     advance fees exceeded expenses, the DEF was to deduct the excess from the
     management fee paid in the next funding period.

     The FY 1998 budget for GPV describes the financial relationship between the
     DEF and GPV. The budget states that the DEF would fund GPV by paying a
     fee to GPV for managing DEF investments and by paying GPV for its capital
     expenditures and lease prepayments. GPV was to use the management fee to
     fund its costs. Those costs included salaries and benefits for GPV employees in
     Richmond, Virginia, Moscow, Russia, and St. Petersburg, Russia; marketing
     and communications; amortization and depreciation; and the startup activities
     for the NIS Transformation Fund, a private equity fund created by GPV.


Objectives
     Our overall audit objective was to evaluate how the DEF and its fund manager,
     GPV, used grant funds for managing the grant. In addition, we evaluated
     whether grant terms were consistent with grants awarded to enterprise funds
     established under the Support for East European Democracy Act of 1989 (SEED
     Act), Public Law 101-179.




                                          3
                Use of Grant Funds to Manage
                Investments
                As required by National Defense Authorization Act for fiscal year 1994,
                the terms of the grant to the DEF were generally consistent with the
                terms of grants awarded under SEED Act. Through FY 2000, the DEF
                and GPV used at least $35.6 million of grant funds and income from
                grant funds for management costs and expenses in conformance with the
                grant agreement. That amount included $32.4 million expended by the
                DEF and GPV between FY 1994 and FY 1999, the period covered by
                our review. As a lessons learned, had statutory authority allowed DoD
                to incorporate cost principles for Federal grants into the grant agreement,
                the grants officer could have determined that management costs and
                expenses totaling at least $2.2 million5 to be unallocable, unallowable, or
                unreasonable.


Establishing the DEF
    Legal Requirements. The National Defense Authorization Act for fiscal year
    1994, section 1204 (22 U.S.C. 5953), authorized the President to designate a
    Demilitarization Enterprise Fund to receive grants and use those grants to
    financially support demilitarization of industries and convert military
    technologies and capabilities to civilian activities. The law required the
    President to consult with the Secretary of State and the Administrator of the
    U.S. Agency for International Development to ensure that the terms of any such
    grants were consistent, to the maximum extent practicable, with grants awarded
    to enterprise funds established under the SEED Act. The authority and
    responsibilities established under the National Defense Authorization Act for
    fiscal year 1994, section 1204, were subsequently delegated to the Secretary of
    Defense. The DEF was created under the authority delegated to the Secretary
    of Defense.

    Polish-American Enterprise Fund. The terms of the DEF grant generally
    paralleled the terms of Grant No. ANE-0010-G-00-0022-00 awarded to the
    Polish-American Enterprise Fund, a SEED Act grantee, by the U.S. Agency for
    International Development. Under the terms of both the DEF and
    Polish-American Enterprise Fund grants, grantees could use funds to support
    costs that are reasonable and allowable according to the terms of the grant and
    the statement of corporate policies and procedures. There were, however, three
    operating differences between the DEF and Polish-American Enterprise Fund.
    First, DEF investments were limited to $8 million, unless DoD approved a
    higher amount, whereas the grant for the Polish-American Enterprise Fund did
    not restrict the amount of individual investments. Second, DoD provided funds
    to the DEF in advance of its immediate cash needs, whereas the

    5
        As discussed in Appendix A, Audit Process, there were several limitations to the scope of the
        audit.



                                                  4
     Polish-American Enterprise Fund operated under a letter of credit with the
     U.S. Agency for International Development and could only draw cash needed
     for 30 days. Third, the DEF was required to pursue investments in all eligible
     countries with target investments of at least 25 percent in Russia, 20 percent in
     Ukraine, 10 percent in Kazakhstan, and 5 percent in Belarus. Performance of
     the DEF was to be evaluated against those target investments. The
     Polish-American Enterprise Fund targeted its investments on small and medium
     size enterprises in Poland.


Applying Federal Cost Principles
     Like grants awarded under the SEED Act, the DEF grant did not incorporate
     the cost principles of Office of Management and Budget (OMB) Circular
     No. A-122, “Cost Principles for Non-Profit Organizations.” According to an
     official from the U.S. Agency for International Development, which administers
     SEED Act grants, OMB Circular No. A-122 requirements were excluded from
     SEED Act grants to emulate private industry and free grantees from the “red
     tape” that typically accompanies grants. The official from the U.S. Agency for
     International Development also stated that independent accounting firms hired to
     audit grantee financial statements were expected to report any irregularities to
     the grantee board of directors. Rather than focus on cost, the official from the
     U.S. Agency for International Development stated that his agency compared the
     cost of managing enterprise funds against the size of the investment portfolio.
     Annual management costs that range between 1 percent and 2 percent of the
     investment portfolio were acceptable.6
     The DEF grant, like the grant to the Polish-American Enterprise Fund, states
     that funds provided under the grant can be used to support costs that are
     reasonable and allowable according to the grant terms and the Statement of
     Corporate Policies and Procedures for the organization. Neither grant discusses
     the allowability of specific costs. Except for information in the DEF Statement
     of Corporate Policies and Procedures, which includes several types of costs that
     are not allowable under OMB Circular No. A-122, the independent accounting
     firm would not have a basis for evaluating whether specific costs were
     reasonable.

     Had DoD been allowed to include OMB Circular No. A-122 in the DEF grant,
     management costs charged to the grant by GPV through its contract with the
     DEF would have been subject to the cost principles in the Federal Acquisition
     Regulation (FAR). Specifically, paragraph 3.b. of OMB Circular No. A-122
     requires subgrants and cost reimbursable subcontracts to be subject to the cost
     principles that apply to the subgrantee or subcontractor. For example,



     6
      Using the U.S. Agency for International Development standard for the Polish-American
     Enterprise Fund to evaluate the cost of managing the DEF between FY 1994 and FY 2000 may
     be flawed because the Polish-American Enterprise Fund was more mature and the DEF was
     required to make investments in several countries of the former Soviet Union.



                                             5
     commercial organizations that receive cost-reimbursable subcontracts are
     required to comply with the cost principles in Part 31 of the FAR, “Contract
     Cost Principles and Procedures.”


Policies and Procedures
     DEF Policies and Procedures. We located three DEF documents on policies
     and procedures related to its finances--the Statement of Corporate Policies and
     Procedures, dated May 26, 1994; the Corporate Finance Manual, dated July 20,
     1995 (revised, effective January 31, 1996); and a draft Policy for Relocation
     Assistance, dated February 17, 1997.

     The Statement of Corporate Policies and Procedures for the DEF includes
     policies and procedures for accounting, auditing, budgetary and financial
     controls; ethics and personnel matters; management; recordkeeping; security;
     and grant funds. The policies and procedures include several categories of
     expenses that are not allocable or allowable to grants subject to OMB Circular
     No. A-122. Those expenses include advertising, bad debts, entertainment, and
     fines and penalties assessed to the DEF. The policies and procedures allowed
     both the DEF president and DEF board of directors to fly in first class
     accommodations for domestic and international flights.

     The Corporate Finance Manual includes policies and procedures for financial
     reporting and analysis. The manual has several expense categories that would
     not be allocable or allowable to grants subject to OMB Circular No. A-122,
     including business meals and entertainment. The Corporate Finance Manual
     allows DEF employees to fly business class on nonstop flights that exceed
     5 hours, including international travel, as well as to fly first class when the
     employees are required to attend a meeting shortly after arriving at their
     destination.

     The draft Policy for Relocation Assistance discusses policy for relocating
     employees within the United States and overseas. For employees relocated
     overseas, the draft policy states that employees will receive two round-trip
     economy class tickets each year either to or from the United States. Tickets
     from the United States were for individuals to visit DEF employees. Although
     it does not include specific coverage related to employees stationed overseas,
     OMB Circular No. A-122 states that total compensation costs are allowable to
     the extent that they are reasonable and conform with the established policy of
     the organization, consistently applied to Federal and non-Federal activities.

     GPV Policies and Procedures. From available records, we identified one GPV
     policy and no GPV procedures. The policy was a draft International
     Assignment/Relocation Policy of Global Partner Ventures, LLC, dated
     September 30, 1997, and published before GPV was organized. For
     international assignments, the draft policy states that salaries will be based on
     the compensation structure in each employee’s home country, employees are
     entitled to cost-of-living allowances, and holiday and vacation schedules based
     on holidays and vacation schedules in effect at the location of assignment. For


                                         6
    employees and their families, the draft policy provides for cross-cultural
    training, language lessons, physical examinations, familiarization and house
    hunting visits, and shipping costs for household goods and personal effects. The
    draft policy does not address whether employees relocated to overseas locations
    receive airfares for returning to the United States.


Management Expenses
    The DEF and GPV used at least $2.2 million of grant funds for costs that would
    have been unallocable or unallowable if the grant was subject to Federal cost
    principles, or could have been considered unreasonable and for purposes
    unrelated to managing the fund. Unallocable expenses included those expenses
    associated with establishing GPV and its private equity fund. Also, many costs
    associated with establishing GPV and the private equity fund are unallowable
    under Federal cost principles, including advertising and public relations, fund
    raising, and organization. Other expenses, such as business and first class
    airfares, entertainment, and meals are also unallowable under Federal cost
    principles. Unreasonable expenses included housing allowances that exceed
    allowances developed by the Department of State for Government employees,
    pension expenses that exceed industry averages, and unreasonable training costs.
    Costs that appear unrelated to managing the fund include personal loans,
    employee medical expenses, and airfare for vacations. Unallocable,
    unallowable, and unreasonable expenses are summarized in the following table.

               Unallocable, Unallowable, and Unreasonable Expenses
                                     (thousands)
                 Unallocable
                  Organization costs                $1,100.0*
                    Subtotal                         1,100.0

                  Unallowable
                   Airfares                                  29.5
                   Entertainment and meals                  192.6
                        Subtotal                            222.1

                  Unreasonable
                   Housing allowances                       258.6
                   Pension contributions                    537.4
                   Training                                  35.5
                    Subtotal                                831.5

                          Total                          $2,153.6
                  *
                      Includes unallowable expenses.




                                              7
Unallocable Costs. Based on the records provided, between FY 1997 and
FY 1999 the DEF incurred at least $1.1 million7 of costs and expenses that
would have been unallocable if the grant were subject to Federal cost principles.
Costs and expenses were related to organizing GPV and starting the NIS
Transformation Fund. Those costs included accounting, depreciation, fringe
benefits, salaries, training, and travel. Expenses that relate to organizing GPV
and starting the private equity fund would not normally be allocable to the grant
because the DEF allocated similar types of expenses incurred to manage
DoD funds directly to the grant. Therefore, similar costs that the DEF incurred
related to other cost objectives8 normally would not have been allocable to the
grant with DoD. A detailed explanation and a schedule of those costs and
expenses are in Appendix C. According to a May 5, 1998, letter from the DEF
counsel to the General Accounting Office, the GPV was to be reimbursed up to
$1 million for organizing the NIS Transformation Fund. Therefore, the DEF
expected to be reimbursed for most of the expenses that it incurred to raise
private capital for the NIS Transformation Fund.

        Cost Allocation Principles. Both OMB Circular No. A-122 and the
FAR discuss the allocability of costs to Federal awards, including grants,
contracts, and cooperative agreements. Attachment A, General Principles, to
OMB Circular No. A-122 states that expenses charged to awards must be
reasonable, allocable, consistent with organization policies and procedures, and
accorded consistent treatment. Attachment A to OMB Circular No. A-122 also
states that costs are allocable to Federal awards if they are incurred specifically
for the award; benefit the award and other work, and can be distributed in
relationship to the benefits received; or are necessary to the overall operation of
the organization. In general, consistent treatment refers to consistency in
allocating similar type costs directly to activities, such as awards, projects, or
service, or as overhead. Part 31 of the FAR provides similar criteria for
allocating expenses to Federal contracts.

       Organization and Fund Raising Costs. In addition to being
unallocable, at least $503,600 of the costs related to organizing GPV and raising
funds for the NIS Transformation Fund would have been specifically
unallowable if the grant were subject to Federal cost principles. The
unallowable costs include at least $42,500 in legal expenses for organizing GPV
and preparing the private placement memorandum9 for the NIS Transformation
Fund, and $460,40010 in consulting fees for the private investment fund. One

7
    This amount does not include overhead costs for overall management of the DEF and GPV.
    However, the DEF and GPV had not established any apparent method of allocating those costs
    to its final cost objectives. Also, although expenses for several employees were charged to NIS
    Transformation Fund accounts, employee salaries were not charged to those accounts.
8
    Attachment A, paragraph B.1. of OMB Circular No. A-122, describes a cost objective as an
    award, project, service, or other direct activity of an organization.
9
    A private placement memorandum is the primary document that a business uses to raise funds
    through the issuance of securities. It details the reasons funds are being raised, and identifies
    the officers and directors, restrictions on the resale of the securities, and any sales
    commissions.
10
    This amount excludes consulting services in FY 1999 because the DEF general ledger provided
    did not include sufficient detail to identify consulting fees related to the private equity fund.



                                                8
consultant was paid to coordinate marketing efforts for placing venture capital
funds, selecting other consultants to help raise funds for the NIS Transformation
Fund, and directing GPV public affairs and relations for raising funds and
building the profile of GPV as a leading venture capital firm. The DEF also
reimbursed GPV more than $700 for an employee to play golf at a prestigious
resort.

        Cost Principles. Both OMB Circular No. A-122 and the FAR restrict
the allowability of charging advertising and public relations, and organization
and fund raising costs to Government awards. Specifically, Attachment B,
paragraph 1 of OMB Circular No. A-122 and FAR Subpart 31.205-1 on
advertising and public relations costs, state that those costs are unallowable
unless specifically required by contract or grant, or arise from requirements of
Government awards. Also, Attachment B, paragraph 31 of OMB Circular
No. A-122 and FAR Subpart 31.205-27 on organization costs, state that those
costs and fund raising costs are unallowable.

        Unallowable Expenses. The DEF and GPV incurred $222,10011 of
expenses that would have been unallowable if the grant were subject to Federal
cost principles. Those expenses included airfares in excess of coach class fares,
entertainment, and meals for employees who were not in travel status.

         Airfares. During Fiscal Year 1999, GPV used $29,500 of grant funds
for airfares that would be unallowable because the class of the fare exceeded
coach class fares and without documenting the justification. The airfares were
for six trips, including five airfares for the two employee-owners of GPV.12
Although the DEF Statement of Corporate Policies and Procedures allows its
president and members of the board of directors to fly first class on domestic
and international flights, without documenting adequate justification, those
expenses would not have been allowable costs on Federal contracts and grants
subject to OMB Circular No. A-122 and the FAR. Also, the Corporate Finance
Manual for the DEF allowed employees to fly business class on international
flights longer than 5 hours. In contrast, the comptroller for the current fund
manager stated that company policy requires that all employees, including the
managing partner, fly coach class.

Both OMB Circular No. A-122 and the FAR restrict the allowability of airfares.
OMB Circular No. A-122, Attachment B, paragraph 55, on travel costs states
that first class airfares are an unallowable cost, and contains the same exceptions
provided under the FAR. Further, an OMB official responsible for OMB
Circular No. A-122 believed that the OMB cost principle was written before
business class airfares were available. The OMB official stated that individual
Federal agencies can consider airfares that exceed coach class to be
unreasonable. Subpart 31.205-46 of the FAR on travel costs generally disallows
airfare costs in excess of the lowest customary standard airfare. Exceptions to
the requirement would be when circumstances are such that using the lowest

11
 Although this figure includes the entire cost of business class and first class airfare, only the
 difference in price between those fares with coach class fares would be unallowable costs.
12
     One of the employee-owners also served as the president of the DEF at that time.



                                              9
customary standard airfare would require a circuitous route, or for travel during
unreasonable hours, result in increased costs that would offset transportation
savings or would not meet the medical needs of the traveler. The FAR requires
that those circumstances be documented and justified.

        Entertainment and Meals. Between FY 1997 and FY 1999, the DEF
and GPV incurred at least $192,600 for meals and entertainment, including the
cost of a country club membership, employee lunches at their Moscow and
St. Petersburg offices, a subscription to the symphony, tennis fees, and theater
tickets. In November 1997, the DEF paid about $96,800 for a membership to a
country club, including $85,000 for the initial membership fee and about $1,800
in yearly dues for employees. Also, in August 1998, the DEF reimbursed GPV
$10,000 for yearly dues to the country club for GPV employees.13 The DEF
and GPV also spent about $50,800 for employee lunches in the Moscow and
St. Petersburg offices, excluding the cost of kitchen facilities and office space,
and an additional $45,000 for entertainment and meals when employees were
not traveling. The entertainment and meals, which included business meetings
either with other GPV employees or non-GPV contacts, also included theater
tickets costing $500 and tennis fees of $300. In addition, GPV employees
benefited from various social activities funded by the grant. For example, in
July 1998, GPV purchased an office subscription to a symphony in Moscow for
about $900.

                Cost Principles for Entertainment. Both Attachment B,
paragraph 14, of OMB Circular No. A-122 and Subpart 31.205-14 of the FAR
on entertainment costs state that entertainment costs are unallowable. Both
regulations specifically disallow the cost of amusement, diversions, social
activities, and associated costs such as gratuities, lodging, rentals, and
transportation. The FAR subpart also disallows the costs for memberships at
country clubs, or dining and social clubs, and specifically identifies tickets to
shows or sports events and meals as costs associated with amusement,
diversions, and social activities. Attachment B, paragraph 30, of OMB
Circular No. A-122 on membership costs, also states that the cost of country
club, or dining and social club memberships, is unallowable.

                 Cost Principles for Employee Meals. Both OMB
Circular No. A-122 and the FAR generally disallow the cost of employee meals.
Attachment B, paragraph 14, of OMB Circular No. A-122, on entertainment
costs states that the cost of meals is unallowable. Also, FAR Subpart 31.205-13
on employee morale, health, welfare, food service, and dormitory costs and
credits, states that the cost of food service is unallowable if furnished without
charge or at prices or rates that obviously would not sustain a break-even
objective.

Unreasonable Costs. The DEF and GPV incurred at least $831,500 of
expenses that could be considered unreasonable. Expenses include housing


13
  The comptroller for Siguler Guff and Company, LLC, stated that although the DEF maintains
 the country club membership, no additional membership payments have been made and the
 membership is for sale.



                                        10
allowances that exceeded the allowances provided by the Department of State
for Government employees, pension expenses that exceeded industry averages,
and expensive training costs.

        Housing Allowances. Between July 1997 and September 1999, the DEF
paid more than $258,600 for housing six expatriate employees14 in amounts that
exceeded levels that may be considered reasonable based on housing allowances
provided by the Department of State for its employees stationed in Moscow. Of
that amount, one employee received $142,500 for housing allowances in excess
of the Department of State allowances. In addition, the housing allowance
provided to that employee may have exceeded DEF and GPV policy by up to
$51,425. According to a former DEF and GPV Chief Financial Officer,
housing allowances were based on an internal housing allowance schedule. The
schedule shows that senior executives with three children were to receive an
annual housing allowance of $105,000, which is approximately the housing
allowance provided to the employee. Documents in the employee’s personnel
file, however, indicate only two children, one of whom was more than 17 years
of age and attending school full time in the United States.15 Based on the
housing allowance schedule for two children, the employee should have received
only $90,000 a year and only $75,000 a year for one child.

Although no criteria was in the grant for determining the reasonableness of
housing allowances, the grants officer at the Defense Threat Reduction Agency
provided guidelines to the Chairman of the DEF board of directors in March
1999. That time period was about 5 years after the grant started and 2 years
after the DEF and GPV began providing housing allowances to expatriate
employees. Specifically, the grants officer stated that the DEF should rely on
the Department of State Indexes of Living Costs Abroad, Quarterly Allowances,
and Hardship Differentials for structuring a fringe benefits package for its own
employees and in approving packages for GPV employees. According to
Department of State guidelines, the maximum housing allowance for Moscow is
$27,500 a year.

         Pension Expenses. Based on data published by the Bureau of Labor
Statistics, between FY 1997 and FY 1999, DEF and GPV contributions to
employee pension accounts may have been $537,400 more than amounts
considered reasonable. During that period, the DEF and GPV contributed
19 percent of salaries to pension accounts for employees, about $729,400. That
contribution rate significantly exceeded contribution rates published by the
Bureau of Labor Statistics. For March 2001, the latest period available, the
Bureau of Labor Statistics reported that employers in the finance, insurance, and
real estate industry contributed 5 percent of salaries and wages for employee
retirement and savings plans. Compared with that national data, the DEF and
GPV contributed almost four times the contributions made by employers in the
financial, insurance and real estate industry.


14
     We judgmentally selected the employees.
15
 The housing allowance sheet did not indicate if or when children more than 17 years of age
 were considered for determining the housing allowance.



                                           11
In a March 1995 memorandum to the DEF Board of Directors, the Chief
Financial Officer for the DEF explained the high contribution rate (proposed as
18.5 percent) as part of an employee benefits package16 that totaled 30 percent
of salaries. In the memorandum, the Chief Financial Officer stated that in
considering and producing plan documents, DEF managers obtained advise from
an accounting firm, legal advisors, and retirement plan advisors. Further, the
Chief Financial Officer offered the following explanation for providing the level
of employee benefits.
            . . . industry standards, 501(c)(3) organizations [non-profit
            organizations] tend to provide higher benefits because of salary caps
            and the lack of long term incentive programs (i.e. stock plans and
            stock options, etc.) in a not-for-profit environment, [and] the limited
            life of the organization.

The Chief Financial Officer also offered a comparison of the total benefits for
DEF employees against other enterprise funds and stated that other SEED Act
grantees had comparable benefit rates. Specifically, the Chief Financial Officer
stated that the Russian American Enterprise Fund provided benefit rates of
between 25 percent and 27 percent, and the Fund for Large Enterprises in
Russia provided benefits of 20 percent to 25 percent, as well as paid the
incremental costs of self-insuring its disability obligations.

The March 1995 memorandum shows that the proposed benefits package
exceeded the benefits paid by two other enterprise funds by at least 3 percent.
Also, when it took over as fund manager, GPV did not have the same
constraints as the DEF. Specifically, employees could earn more than $150,000
a year and share in profits, as long as the additional compensation did not come
from the grant. Also, the life of GPV was limited only by an ability to succeed
in business and a willingness of the owners to stay in business. In addition, the
comptroller for the current fund manager stated that the company only
guarantees a 4-percent contribution rate but may contribute up to another
5 percent, rather than paying a cash bonus to employees. The controller also
characterized the contribution rate for his company as generous.

        Training. In June and July 1998, a GPV employee, who may have been
transitioning his residence from the United States to Moscow,17 attended a
management course in England in June and July 1998 at a cost of more than
$35,500. The training expenses included $27,400 for the course and $8,100 for
airfare, lodging, meals, and incidentals. We could identify no documentation to
show that the course included unique materials or instruction that was
unavailable domestically or that would otherwise justify that particular
employee’s attendance.


16
  Other benefits in the 30 percent benefit package included life, medical, and disability
 insurance. Leave and employer share of social security were excluded from the 30 pecent rate.
17
 The employee started receiving a housing allowance for an apartment on July 1, 1998,
 although he was in England from June 21, 1998 through July 18, 1998. Other documents, such
 as payroll records, that showed when the employee officially became a resident of Russia, were
 not provided.



                                         12
    Disbursements Unrelated to Managing the Fund. Additional unreasonable
    cash disbursements and expenditures include those that may not be related to
    managing the fund. Items included medical expenses, a personal loan, and
    vacations.

            Medical Expenses. In addition to providing health insurance, GPV paid
    more than $2,600 of other medical and dental expenses for its Russian national
    employees in FY 1998 and FY 1999. According to memorandums prepared by
    the employees, payments appear to have been made on a case-by-case basis.
    Specifically, in the memorandums employees would ask GPV management to
    pay medical or dental bills not covered by employee insurance. Because GPV
    provided medical insurance and medical and dental payments were on a
    case-by-case basis, the payments do not appear to be part of a self-insurance
    plan set up by GPV. Therefore, the expenses appear to be unnecessary for
    managing the fund.

            Personal Loan. In November 1997, the DEF made a $15,000 loan to
    the general director of a DEF investment partner and his wife. The purpose of
    the loan was not stated in the loan agreement. According to the loan agreement,
    interest was not charged for the first 30 days. After the first 30 days, interest
    was charged at an annual rate of 8 percent. Although the loan was secured by
    the salary of the general director and by collateral in shares of stock, the
    accounting records provided do not show the loan was repaid.

            Airfares for Employee Vacations. In addition to home leave, in
    FY 1999, GPV incurred more than $4,000 of expenses in airfares for a
    Moscow-based employee and family to take three vacations. Although the
    travel was not for return trips to the United States, GPV accounted for those
    expenses as family leave. The airfares included more than $2,500 for a trip to
    the Middle East and more than $1,500 for two trips to Glasgow, Scotland. The
    airfares were not directly associated with the objectives of the grant agreement
    and were not included in any internal DEF or GPV policy. Therefore, the costs
    of employee travel for vacations are not allowable per the terms of the grant.


Impact on Investments
    The DEF expended $35.6 million of grant funds and income from grant funds to
    manage its investments. The primary expenses included management fees
    (31.9 percent), consulting expenses (18.5 percent), salaries and compensation
    (14.4 percent), and accounting, legal and professional fees (13.3 percent).
    Between FY 1997 and FY 1999, at least $2.2 million of the $35.6 million could
    have been used to make additional investments in defense conversion activities
    in eligible states of the former Soviet Union. The Government paid for the DEF
    to establish GPV and market its private investment fund, airfares that exceeded
    coach class fares, entertainment, and employee lunches. Also, the Government
    paid for unusually high contribution rates into retirement plans and housing
    allowances that exceeded Department of State rates. Those and other expenses
    could have been used to make additional investments in defense conversion.



                                       13
    According to the comptroller for Siguler Guff and Company, LLC, the business
    model for managing the fund was flawed. Specifically, the comptroller stated a
    fund management agreement based on reimbursing the costs of the fund
    manager provides little incentive for the fund manager to control costs. The
    comptroller’s comments are generally supported by the FAR. FAR
    Subpart 16.104 on selecting contract types states that when there is effective
    price competition, a fixed-price contract is ordinarily in the best interest of the
    Government. Fixed-price contracts also place more risks on the contractor for
    efficiency, thus leading the contractor to operate in a more economic manner.
    Further, FAR Subpart 16.301 on cost-reimbursable contracts states that those
    contracts should be used when appropriate surveillance will provide reasonable
    assurance that the contractor uses efficient methods and effective cost controls.
    Therefore, the DEF may have incurred lower costs if it had initially used a
    fixed-price contract to manage the fund.


Conclusion
    In preparing the grant with the DEF, the Defense Nuclear Agency generally
    followed the terms of the Polish-American Enterprise Fund, a grant awarded
    under the SEED Act. Although following the terms of SEED Act grants was
    required under the National Defense Authorization Act for fiscal year 1994,
    doing so allowed the DEF to expend $2.2 million of grant funds for costs and
    expenses that would normally not be allowable under OMB Circular No. A-122.
    The unallocable, unallowable, and unreasonable expenditures made by the DEF
    and GPV to manage the grant support a continuing need to include Federal cost
    principles in contracts and grants that reimburse contractors and grantees for
    their costs.

    Because the Defense Nuclear Agency was required to follow the terms of grants
    awarded under the SEED Act, and the DEF awarded a firm-fixed-price contract
    in October 1999 valued at $2 million a year to manage its investments, this
    report contains no recommendations.


Management Comments on the Finding
    The Defense Threat Reduction Agency comments to the draft report emphasized
    that DoD does not control the Defense Enterprise Fund and stated that Congress
    declined to impose Office of Management and Budget and other regulations on
    the Defense Enterprise Fund. In addition, the Defense Threat Reduction
    Agency stated that absent specific language in 1204 of the National Defense
    Authorization Act for fiscal year 1994, the Defense Threat Reduction Agency
    would not have presented the grant for approval in its present form. Also, the
    Defense Threat Reduction Agency stated that the Defense Enterprise Fund was
    chartered to use grant funds to organize its management company and raise
    private capital. Finally, the Defense Threat Reduction Agency suggested that
    the lead sentence in the Executive Summary of this report state that the Defense
    Enterprise Fund used funds according to the terms of the grant.


                                        14
Appendix A. Audit Process

Scope
    Work Performed. We reviewed costs and expenses that the DEF incurred for
    Grant No. DNA001-94-J-0004 for fiscal years 1997, 1998, and 1999. To obtain
    background information on the grant, we reviewed the National Defense
    Authorization Act for fiscal year 1994 and applicable portions of the SEED Act,
    Grant No. DNA001-94-J-0004, and DEF policies, procedures, and manuals.
    To evaluate whether the terms of the DEF grant were as consistent as possible
    with grants awarded to enterprise funds established under the SEED Act, we
    compared the DEF grant with the grant awarded to the Polish-American
    Enterprise Fund. We also interviewed an official from the U.S. Agency for
    International Development to understand why SEED Act grants lacked the
    requirements included in OMB Circular No. A-122. To determine whether
    costs that the DEF incurred would have been deemed allowable or allocable to
    Federal awards, we compared selected incurred costs with OMB
    Circular No. A-122 and Part 31 of the FAR. We also traced selected expenses
    incurred by the DEF and GPV to supporting documentation, such as vendor
    invoices, airline tickets, and consulting agreements. Except for background
    materials and general ledgers from FY 1994 through FY 1996 and FY 2000
    used to help total management costs, the documentation we reviewed covered
    the period from October 1, 1996, through September 30, 1999.

    Limitations to Audit Scope. This review included several scope limitations.

           •   The review was limited to records that the DEF law firm submitted
               to our offices and to records that were available at the offices of
               Siguler Guff and Company, LLC, in New York City, New York.
               The review excluded any records in the Moscow, Russia, office of
               the fund manager. We understand that those records support whether
               the DEF and GPV exercised proper due diligence in making
               investment decisions.

           •   Staff of Siguler Guff and Company, LLC, destroyed an unknown
               quantity of records prior to the start of this review. We do not know
               if or how that affected the results of the audit.

           •   We did not ensure that all of the payments made to a DEF employee
               for paying DEF bills were properly accounted for because we did not
               have access to that employee’s personal accounts.

           •   We did not ensure that all of the payments made to a Cyprus
               subsidiary of GPV to pay bills were properly accounted for because
               we did not have access to the subsidiary’s accounts.




                                       15
           •   We did not ensure that all property, plant, and equipment purchased
               with grant funds were properly accounted for because we did not
               have a list of GPV property, plant and equipment prior to the sale or
               disposition of those assets.

           •   We did not reconcile cash accounts in the DEF and GPV general
               ledgers to bank statements or review any cash reconciliations
               performed by independent public accountants for the DEF or GPV.


Methodology
    We evaluated costs charged to the grant and included several areas.

           •   We reviewed the public law that required DoD to establish and award
               a grant to the DEF, and interviewed an official from the
               U.S. Agency for International Development to obtain an
               understanding of grants the agency awarded to enterprise funds
               through the SEED Act.

           •   We reviewed the grant awarded to the DEF and compared it to the
               provisions of the grant awarded to the Polish-American Enterprise
               Fund, a grantee under the SEED Act.

           •   We reviewed the internal corporate policies and draft policies of the
               DEF that we could locate. Also, we reviewed a draft GPV corporate
               policy for relocating employees. We also inquired of the grants
               office whether the Defense Threat Reduction Agency had approved
               any DEF corporate policy, which is a grant requirement.

           •   We reviewed paper copies of DEF and GPV general ledgers and
               traced entries to supporting documents provided by the DEF general
               counsel. In general, those documents included only the expense
               reports submitted by employees of the DEF and GPV and payroll
               ledgers for FY 1999. Later, we obtained additional documentation
               from the New York City office of Siguler Guff and Company, LLC.
               Documents obtained included documents that related to allegations
               made against DEF and GPV employees, petty cash records, and bills
               submitted by the DEF general counsel.

    Use of Computer-Processed Data. We used the paper copies of the FY 1997,
    FY 1998, and FY 1999 general ledgers of the DEF and GPV to identify account
    balances and trace transactions. The general ledgers were created with
    commercially available software created by ACCPAC International, Inc. While
    supporting documentation was generally traceable to the general ledger, we are
    unable to fully evaluate the reliability of the data for several reasons. We did
    not evaluate the operating environment because GPV is no longer an active
    business. Supporting documents frequently did not identify how an entry was
    accounted for. When compared with the audited financial statements for



                                       16
     FY 1997, FY 1998, and FY 1999, significant differences existed between
     assets, liabilities, revenue, and expenses as shown in the general ledger.

     Universe and Sample. We judgmentally selected transactions from records
     provided by the DEF General Counsel and from the records at the New York
     City office of Siguler Guff and Company, LLC.

     Audit Type, Dates, and Standards. We performed this financial-related audit
     from November 2000 through November 2001 in accordance with generally
     accepted government auditing standards.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD, the U.S. Agency for International Development, the
     Office of Management and Budget, Siguler Guff and Company, LLC, and
     former employees of the DEF and GPV. Further details are available on
     request.


Management Control Program Review
     We did not address the adequacy of the overall Cooperative Threat Reduction
     Program Directorate management control program in this report because it was
     addressed in the Inspector General, DoD, Report No. D-2001-074,
     “Cooperative Threat Reduction Program.”


Prior Coverage
     During the last 5 years, the General Accounting Office and Inspector General
     have issued two reports each discussing the DEF. Unrestricted General
     Accounting Office reports can be accessed over the Internet at
     http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
     accessed at http://www.dodig.osd.mil/audit/reports.

General Accounting Office
     General Accounting Office Report No. OGC-99-61R, “Foreign Assistance:
     Issues Concerning the Polish-American Enterprise Fund,” September 14, 1999

     General Accounting Office Report No. NSIAD-97-101 (OSD Case No. 1308),
     “Cooperative Threat Reduction: Status of Defense Conversion Efforts in the
     Former Soviet Union,” April 11, 1997




                                        17
Inspector General, DoD
     Inspector General, DoD, Report No. D-2001-074, “Cooperative Threat
     Reduction Program,” March 9, 2001

     Inspector General, DoD, Report No. D-2000-176, “Defense Enterprise Fund,”
     August 15, 2000




                                     18
Appendix B. Management Expenses By
            Fiscal Year
   According to the general ledger trial balances of the DEF, between fiscal years
   ending September 30, 1994, and September 30, 2000, the DEF grant incurred
   $35.6 million of expenses to manage its investments. Primary expenses
   included management fees (31.9 percent), consulting expenses (18.5 percent),
   salaries and compensation (14.4 percent), and accounting, legal and professional
   fees (13.3 percent).




                                      19
                                                                                (thousands)
                                                                                                                                                Percent
                   Expense                   1994         1995         1996           1997          1998       1999       2000        Total     of Total
     Management Fees
                                                                                                                               *                  31.9%
                                                -            -            -              -       $ 4,100.8   $4,800.0   $2,453.6    $11,354.4
     Consulting Expenses                    $ 42.2      $ 117.2      $ 400.5        $1,502.2       3,344.0    1,081.8       93.9      6,581.8     18.5%
     Salaries and Compensation                23.4         700.0      1,033.1        1,926.6       1,455.4        6.4       -         5,144.9     14.4%
     Accounting, Legal, and                   -            533.6      1,515.6        1,036.9         608.2      727.0      334.5      4,755.8     13.3%




20
      Professional Fees
     Office Expenses                           14.7        259.1        369.6        1,098.8        789.9      242.6       20.8      2,795.5      7.8%
     Travel, Meals, Incidentals,                5.2        223.1        293.1          874.9        747.4       34.4        3.8      2,181.9      6.1%
       and Entertainment
     Rent and Repairs                           1.2         66.0        164.9           442.6       188.9       -          528.7     1,392.3      3.9%
     Depreciation and Amortization              -           25.7        105.1           159.4        32.1      310.4         9.5       642.2      1.8%
     Employee Training and Fees                 -           44.5         40.2           267.3        89.5       11.3         0.1       452.9      1.3%
     Taxes and Licenses                        26.6         36.8         44.0            77.2        95.4       -           26.9       306.9      0.9%
     Other                                      -           15.4         77. 5         (262.8)       55.5      354. 5     (206.8)       33.3      0.1%

      Total                                 $113.3      $2,021.4     $4,043.6        $7,123.1    $11,507.1   $7,568.4   $3,265.0    $35,641.9   100.0%




     *Includes the cost of transitioning from GPV to Siguler Guff and Company
                                                                                                                                                           Defense Enterprise Fund Expenses Between FY 1994 and FY 2000
Appendix C. Expenses Related to Organizing
            Global Partner Ventures, LLC,
            and the NIS Transformation Fund
   The DEF and GPV incurred at least $1.1 million of expenses associated with
   organizing GPV and operating the NIS Transformation Fund, a private equity
   fund. The expenses included costs to incorporate GPV as a limited liability
   company under the State of Delaware and prepare a private placement
   memorandum, a document used to raise funds from the public. If DEF were
   required to comply with OMB Circular No. A-122 and GPV required to comply
   with the cost principles in the FAR, expenses incurred to organize GPV and the
   NIS Transformation Fund would not have been chargeable to the grant.
   Specifically, OMB Circular No. A-122 and the FAR state that organizing and
   fund raising costs cannot be charged to Federal awards. Also, while other
   expenses associated with the private equity fund may be allowable under Federal
   contract and grant regulations, the expenses would have been unallocable
   because of the “consistency principle” in the regulations. To clarify, because
   the DEF accounted for similar type grant expenses, such as travel, rent, and
   accounting expenses as direct grant expenses, the grant would have been
   allocated a disproportionate share of expenses if the private equity fund were
   considered to be overhead expenses allocated to the grant. Nevertheless, costs
   of organizing GPV, preparing the private placement memorandum, and other
   related costs are allocable and allowable because the grant authorized the DEF
   to establish and finance other entities that make investments. Costs associated
   with establishing GPV and the NIS Transformation Fund between FY 1997 and
   FY 1999 are summarized on the following page.




                                     21
          Expenses Associated with Establishing GPV and the NIS Transformation Fund

Account No.                    Account Name                   1997        1998         1999          Total
5000-4            Salaries                                       -      $ 34,968         -       $    34,968
5060-04           Recruiting                                     -            44         -                 44
5065-04           Employee Insurance                             -         4,391         -             4,391
5070-90           Employer Payroll Taxes                         -         2,675         -             2,675
5550-04           401(a) Contribution                            -         5,714         -             5,714
6100-04           Meals and Entertainment                    $ 1,665        -            -             1,665
6120-04           New Business Development - non-travel          -          -       $     743            743
6140-04-001       NISTF* Travel - Employee A                     -           636         -               636
6140-04-011       NISTF Travel - Employee B                      -        62,747        7,114         69,861
6140-04-012       NISTF Travel - Employee C                      -        45,037        3,612         48,649
6140-04-013       NISTF Travel - Employee D                      -           923         -               923
6140-04-019       NISTF Travel - Employee E                      -           117         -               117
6140-04-021       NISTF Travel - Employee F                      -           233         -               233
6140-04-023       Fundraising Travel - Employee G                -           953         -               953
6140-04-026       Fundraising Travel - Employee H                -           533         -               533
6140-04-030       NISTF Travel - Employee I                      -        39,347       (3,347)        36,000
6140-04-033       Fundraising Travel - Employee J                -           175         -               175
6140-04-035       Fundraising Travel - Employee K                -         4,147         -             4,147
6140-04-044       Fundraising Travel - Employe L                 -           175         -               175
6230-04           Depreciation Expense - Computers               -         1,277         -             1,277
6250-04           Depreciation Expense - GPV                    2,341        741         -             3,082
6300-04           Telecommunications - GPV                      1,406      6,247         -             7,653
6400-04           Postage and Mailing                            -           252         -               252
6420-04           Office Supplies                               5,936      2,265         -             8,201
6500-90           Accounting                                    2,538       -            -             2,538
6710-04           Training, Seminars and Memberships           10,693      1,448         -            12,141
6800-04           System Installation and Software - GPV          411      4,203         -             4,614
6800              Business Development and Fundraising           -          -         166,719        166,719
6900-04           Legal - Corporate - Private Equity Fund     77,792      56,678         -           134,470
7050-04           Delivery and Courier - GPV                      262         74         -               336
7060-04           Director's Expenses - GPV                      -           101         -               101
7100-04           Marketing - NISTF                              -       273,938       60,464        334,402
7120-04           Presentation Materials                        1,083      5,549         -             6,632
7140              Raising Private Capital                       1,508       -            -             1,508
7200-04           Insurance Expense - GPV                        -            90         -                 90
7300-04           Dues and Subscriptions - Kiev                 3,085      3,645         -             6,730
7301-04           Reference Material                             -            53         -                 53
7400-90           Consulting - GPV                             75,331     89,354         -           164,685
7540-04           Travel - GPV                                 34,729     (3,070)        -            31,659

  Total                                                      $218,780   $645,660    $235,305     $1,099,745

*NIS Transformation Fund




                                                        22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Policy)
     Deputy Assistant Secretary of Defense (Negotiations Policy)
       Director, Cooperative Threat Reduction Policy
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organizations
Office of Management and Budget
Department of State
  Special Adviser for the New Independent States




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations




                                       24
Defense Threat Reduction Agency Comments




                     25
26
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel from the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Jaime L. Volturno
